SIDLEY AUSTIN LLP

1501 K STREET, N.W.
SIDLEY WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8000
JGREEN@SIDLEY.COM
AMERICA « ASIA PACIFIC » EUROPE

CERTIFICATE OF SERVICE

No. 20-

Anthony Bernard Smith, Jr.

Petitioner
e

Ron Davis.

 

Respondent.

I, Jeffrey T. Green, do hereby certify that, on this 14 aay of August, 2020, I
caused one copy and an electronic copy of the petition for a writ of certiorari in the
foregoing case to be served electronically and by first class mail, postage prepaid, on
the following party:

Xavier Becerra

Attorney General of California
Justain P. Riley

Deputy Attorney General
California Department of Justice
Office of the Attorney General
1300 I Street, Suite 125
Sacramento, CA 94244
Justain.Riley@doj.ca.gov

 

EY T. GREEN
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
jgreen@sidley.com

Sidiey Austin (DC) LLP is a Delaware limited lisbilty partnership doing business as Sidley Austin LLP and practicing in affliation with other Sidley Austin partnerships,
